No. 20-7686

IN THE
Supreme Court of the United States

LONNIE ALONZO HOWARD,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent,

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

CERTIFICATE OF SERVICE

J HEREBY CERTIFY, pursuant to Supreme Court Rule 29.5(b), that on this
24th day of September, 2021:
1. The original paper Reply Brief of Petitioner was sent by United States
Mail to:
Clerk, United States Supreme Court

One First Street NE
Washington, D.C. 20543
2. A paper copy of the Reply Brief of Petitioner was sent by United States
Mail to:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue NW
Washington, DC 20530-0001

3. All parties required to be served have been served.

Dated this 24th day of September, 2021.

COUNSEL OF RECORD:

 

Attorney for Petitioner

ND Atty. Reg. No. 04966
205 North 7th Street

P.O. Box 216

Wahpeton, ND 58074-0216
(701) 642-1660

(701) 642-2061 (fax)
